OIG Investigative Reports, Philadelphia PA 07/22/2011 - $1.6 Million Settlement Agreement Announced for Alleged Failures to Comply with Federal Student Financial Aid Requirements
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
For Immediate Release
July 22, 2011
United States Attorney's Office
Eastern District of Pennsylvania
Contact  (215) 861-8200
$1.6 MILLION SETTLEMENT AGREEMENT ANNOUNCED WITH CHI INSTITUTE FOR ALLEGED FAILURES TO COMPLY WITH FEDERAL STUDENT FINANCIAL AID REQUIREMENTS
PHILADELPHIA - A $1.6 million settlement agreement was filed today resolving
allegations that CHI Institute ("CHI"), in Broomall, Pennsylvania, failed to provide its students with
the educational program it had promised them, announced United States Attorney Zane David
Memeger. CHI is a proprietary school, which offers career-focused, technical and vocational
courses. CHI is part of Kaplan Higher Education Corporation, a subsidiary of Kaplan, Inc., which
is owned by The Washington Post Company.
The settlement resolves allegations raised by a whistleblower pursuant to the qui tam
provisions of the False Claims Act and resolves the findings of a Department of Education program
review. The qui tam action and the program review focused on a program that CHI formerly offered
that led to a diploma in surgical technology, also called a "surg tech" program. The majority of
students who enrolled in the surg tech program received some form of federal student financial aid
– by way of grants, direct federal loans, and/or guaranteed student loans.
The surg tech program included both classroom time and an externship at a hospital or
surgery center. The externship was a form of field training in a clinical setting. To graduate from
the surg tech program, a student had to complete both the classroom and the externship portions of
the program.
The qui tam action and the program review alleged that CHI misled students and the federal
government about the availability of externships necessary for students to graduate from the surg
tech program. That is, the qui tam action and the program review alleged that CHI did not have
sufficient externship spots for all of the students who signed up for the surg tech program. The
result, according to the allegations, was that students paid CHI – with federal student financial aid
– for an educational program that CHI knew it could not provide. The program review went on to
allege that CHI did not comply with a number of federal student financial aid program requirements.
"Federal education assistance is a cherished resource that the government provides to
help promising students who cannot afford the rising costs of higher education," said Memeger.
"The institutions that benefit from such assistance must deliver what they promise - whether it is
in the form of classes, training, or preparing to successfully enter the job market. When those institutions fail to deliver, we all lose, but perhaps more importantly, individual students are denied valuable opportunities to succeed."
In accordance with the settlement agreement, CHI will make total payments of $1.6
million. Included in that amount are payments to satisfy the student loans of surg tech students
who did not receive the promised externships. Also included in that amount are payments to the
federal government for losses associated with the federal student financial aid program, and a
payment to the whistleblower pursuant to the False Claims Act.
The case was investigated by the Department of Education Federal Student Aid Office
and the Department of Education Office of Inspector General. It was prosecuted by Assistant
United States Attorney Michael S. Blume.
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT, PENNSYLVANIA Suite 1250, 615 Chestnut Street  Philadelphia, PA 19106
Contact:
PATTY HARTMAN Media Contact 215-861-8525
COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT
www.justice.gov/usao/pae
Top
Printable view
Last Modified: 09/08/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov